HHS/OIG-Audit--"Administration on Aging Nutrition Program for the Elderly Use of United States Department of Agriculture Commodities, (A-01-93-02510)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Administration on Aging Nutrition Program for the Elderly Use of United States Department of Agriculture Commodities," (A-01-93-02510)
May 5, 1995
Complete
Text of Report is available in PDF format (3.6 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report found that 18 States generally agree there are opportunities to provide more meals to older Americans,
without increasing Federal expenditures, by using more USDA commodities. The AOA agreed that promoting commodity usage
may better expand nutrition services at a limited cost. The AOA also believes that developing innovative ways such as emphasizing
bonus commodities, to expand nutrition services at a limited cost is essential. Both AOA and USDA staff will address these
issues through improved communications.